               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Revenue, Pieces, and Weight Inputs
    into the Cost and Revenue Analysis
                   Report

                      Audit Report




                                              January 27, 2012

Report Number CRR-AR-12-003
                                                                         January 27, 2012

                                             Revenue, Pieces, and Weight Inputs into
                                              the Cost and Revenue Analysis Report

                                                         Report Number CRR-AR-12-003



IMPACT ON:
The U.S. Postal Service currently              would benefit both operational needs
spends approximately $69 million               and statistical sampling efforts.
annually in manual data collection
efforts to support Finance personnel           WHAT THE OIG RECOMMENDED:
who prepare the Cost and Revenue               We recommended that Finance explore
Analysis (CRA) Report and to meet              using automated data and image
other analytical needs. This includes          recognition capabilities to replace the
about $38 million per year to collect data     manual RPW data collection for mail
for the Revenue, Pieces, and Weight            processed on automation equipment,
(RPW) portion of the statistical models.       explore concentrating data collection of
This report explores alternate ways of         manually processed mail from delivery
estimating the RPW component                   units to processing and distribution
required for the CRA report using              facilities, and coordinate with the Postal
automated data, thus reducing manual           Regulatory Commission regarding these
data collection efforts.                       changes.

WHY THE OIG DID THE AUDIT:                     WHAT MANAGEMENT SAID:
Our objective was to determine whether         Management agreed with the
RPW estimates used in the CRA report           recommendations but disagreed with
could be prepared more efficiently and         the assessment of the state of
effectively using automated data to            automated data and the cost savings
reduce manual data collection.                 estimate, indicating that the report was
                                               misleading.
WHAT THE OIG FOUND:
The Postal Service could significantly         AUDITORS’ COMMENTS:
reduce manual data collection for RPW          We consider management’s comments
estimation by modifying existing               responsive to the recommendations. We
automated processes to collect                 reject the assertion that the report is
mailpiece images for analysis and by           misleading and should be significantly
moving sampling from delivery units to         altered. Our savings estimate is based
supporting processing plants.                  on greater use of automation, and the
                                               potential use of support employees at a
We estimate the Postal Service could           lower wage rate. It is a conservative
save about $13 million in annual data          estimate of possible savings in this area.
collection costs. The Postal Service
could make the hardware changes                Link to review the entire report
needed with existing technology, which
January 27, 2012

MEMORANDUM FOR:            JOSEPH CORBETT
                           CHIEF FINANCIAL OFFICER AND
                           EXECUTIVE VICE PRESIDENT




FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue & Systems

SUBJECT:                   Audit Report – Revenue, Pieces, and Weight Inputs
                           Into the Cost and Revenue Analysis Report
                           (Report Number CRR-AR-12-003)

This report presents the results of our audit of the Revenue, Pieces, and Weight Inputs
into the Cost and Revenue Analysis Report (Project Number 11RG001CRR002).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul L. Kuennen, director,
Cost, Pricing, and Rates, or me at 703-248-2100.

Attachments

cc: Joseph Moeller
    Corporate Audit and Response Management
Revenue, Pieces, and Weight Inputs Into the                                                                      CRR-AR-12-003
Cost and Revenue Analysis Report



                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 2

Increased Use of Automation Mail Data ............................................................................. 3

Changes in Sampling Sites ................................................................................................. 4

Recommendations .............................................................................................................. 6

Management’s Comments .................................................................................................. 7

Evaluation of Management’s Comments ............................................................................ 8

Appendix A: Additional Information................................................................................... 10

   Background .................................................................................................................... 10

   Objective, Scope, and Methodology ............................................................................. 10

   Prior Audit Coverage ..................................................................................................... 12

Appendix B: Monetary Impacts ......................................................................................... 13

Appendix C: Management’s Comments ........................................................................... 14
Revenue, Pieces, and Weight Inputs Into the                                                       CRR-AR-12-003
Cost and Revenue Analysis Report



Introduction

This report presents the results of our audit of the Revenue, Pieces, and Weight (RPW)
Inputs used in the Cost and Revenue Analysis (CRA) Report (Project Number
11RG001CRR002). Our objective was to determine whether RPW estimates used in the
CRA report could be prepared more efficiently and effectively using automated data to
reduce manual statistical data collection. This self-initiated review addresses financial
risk. This report is the second in a series of three reports 1 and addresses the RPW
component of the CRA. See Appendix A for additional information about this audit.

Each class or type of mail service is required to bear the direct and indirect costs
attributable to that class of service and the CRA report aids the Postal Service in
meeting this requirement. Because the accounting systems do not accumulate financial
data by mail categories, management uses statistical models and studies to attribute
costs to the mail classes in the CRA. The statistical systems mostly use data that data
collectors gather manually to produce the CRA. The Postal Service uses principles and
methodologies the Postal Regulatory Commission (PRC) accepts in preparing the CRA
report.

The RPW system and the Origin/Destination Information System (ODIS) provide basic
data on the volume of mail and its associated revenue. The RPW portion of the data is
an essential input to the annual CRA report and management uses it to determine
average unit revenue and average unit attributable costs for products. An RPW report is
published quarterly and is widely used throughout the postal community to track the
revenue, volume, and weight of various postal products. The RPW also provides
information used in budget, workload preparation, and management studies —
information that also supports management’s decisions concerning mail flow and
transportation requirements.

ODIS-RPW tests are conducted at delivery units, such as associate offices, stations,
and branches; and at certain destination mail processing plants in the early morning
hours before mail volume is distributed to the carriers at the Post Office.™ These
destination postal units serve as mail exit points 2 for RPW sampling. Management
conducts about 130,000 tests, costing approximately $38 million, each year at nearly
20,000 mail exit points. The tests are conducted on all mail, but management uses only
single-piece mail data for RPW estimation, since the PostalOne! system collects
equivalent data for bulk mail from mailing statements. RPW also uses a census of data
from the Point of Service system in the estimation.



1
  The first report, issued September 19, 2011, addressed the Transportation Cost System component of the CRA.
The final report we plan to issue will address the In-Office Cost System (IOCS) component of the CRA.
2
  The physical location in the mail processing stream between and including a destination mail processing plant and
the final delivery unit, where mailpieces are isolated for RPW testing. Mail exit points are designed so that every
mailpiece is associated precisely with one mail exit point and every mailpiece in each mail exit point is amenable to
being readily isolated for testing.
                                                          1
Revenue, Pieces, and Weight Inputs Into the                                           CRR-AR-12-003
Cost and Revenue Analysis Report


This is the second of three reviews we are performing to determine the extent to which
mail images and other available system data could be used to reduce manually
collected CRA data. Our first review focused on transportation costs, this review
focuses on RPW, and our third review will focus on the In-Office Cost System.

Conclusion

The Postal Service could significantly reduce manual data collection for RPW estimation
by modifying existing automated processes to randomly collect mailpiece images for
analysis and by moving sampling from delivery units to their supporting processing
plants. For single-piece mail processed through automation, data elements required for
the estimation could be randomly collected by extracting the data from images of
mailpieces using available technologies. This will reduce manual data collection
requirements to approximately 10 percent of the mail that is not processed on
automation equipment. Additionally, the required data could be collected at
approximately 300 processing facilities, instead of the approximately 20,000 destination
units. If the planned significant reductions in the mail processing infrastructure occur,
the number of facilities for data collection would be reduced even further. Using
technology to collect data for automation mail, conducting the sampling at processing
and distribution centers (P&DCs), and restructuring the data collection workforce using
postal support 3 employees could result in an estimated $127.88 million savings over a
10-year period, or about $13 million in annual savings. See Appendix B for details.

Finance’s Regulatory Reporting and Cost Analysis group continually works with
Operations in exploring opportunities to use available automated data for cost attribution
purposes. For example, bulk mail data obtained electronically currently provides
approximately             of the volume data and              of revenue data needed for
RPW data requirements. In addition, recent efforts have enabled the Postal Service to
use data from the Point of Service system for estimating the volume and special
services component of the RPW system.

In responding to our report, Transportation Cost System Inputs into the Cost and
Revenue Analysis Report, issued September 19, 2011, Regulatory Reporting and Cost
Analysis disagreed with the OIG’s assessment of readiness of certain Operations
systems to provide acceptable and applicable census data 4 needed for costing
purposes but agreed to work with applicable vice presidents to develop interfaces to
provide automated data to the Transportation Cost System (TRACS) for product costing
purposes. These same near-term system readiness issues apply to the ODIS-RPW
testing environment. The Postal Service spends approximately $102 million annually to
collect and analyze cost data, including administering the statistical programs and
preparing the CRA. Therefore, it is critical that Finance’s data collection needs are
incorporated into the requirements of evolving Operations systems. This long-term

3
  Postal support employees are non-career bargaining unit employees, whose numbers cannot exceed 20 percent of
the career mail processing clerk craft employees within a district.
4
  Census data involves using mail characteristics, such as mail type, weight, shape, and destination ZIP Code™,
captured from all mailpieces by automated systems, rather than relying on statistical sampling of mail.


                                                       2
Revenue, Pieces, and Weight Inputs Into the                                                 CRR-AR-12-003
Cost and Revenue Analysis Report


assessment of data needs is especially important as the Postal Service intends to
modify its mail processing infrastructure.

Increased Use of Automation Mail Data

For mail undergoing automated processing, most of the data needed for a statistically
valid sample could be captured through the enhanced use of automation and optical
character recognition (OCR) capabilities. Current mail processing equipment is able to
collect mailpiece images as the mail passes through the equipment. A new initiative, the
Image Capture Environment, will consolidate 5 mailpiece images and provide information
for greater operational efficiencies and value added customer services. Together with
the OCR software and longer term hardware enhancements that are being tested by
management, the necessary data, except weight, may be captured from mailpiece
images. Rather than data collection technicians recording the data, the necessary data
could be extracted by system processes and transferred into the Computerized On-Site
Data Entry System or into a virtual ODIS-RPW test system. Table 1 shows information
that can be collected from images through OCR conversion from various types of mail
processing equipment. 6

          Table 1. Current and Future Software Enabled Technical Capability
                    Automation Image Information Capture Feasibility
                                                   Mail Type
                                      Letters           Flats         Parcels
                                     Automation Mail Processing Equipment
    ODIS-RPW Mailpiece              AFCS-200,        AFSM 100        APPS and
    Information Collected        DBCS, and DIOSS      and FSS          APBS
    Length and width                      Yes              Yes            Yes
    Thickness                             Yes              Yes            Yes
    Weight                                 No               No            Yes
    Class of mail                         Yes              Yes            Yes
    Origin ZIP Code                       Yes              Yes            Yes
    Destination ZIP Code                  Yes              Yes            Yes
    Type of indicia                       Yes              Yes            Yes
    Value of indicia/amount of
    postage paid                          Yes              Yes            Yes
    Postmark date                         Yes              Yes            Yes
    Meter serial number                   Yes              Yes            Yes
    Meter manufacturer                    Yes              Yes            Yes
    Special markings/
    endorsements                          Yes              Yes            Yes


5
  This consolidation would bring all images extracted at a processing and distribution center (P&DC) to a centralized
server at that location, where data extraction can occur.
6
  Advanced Facer Canceller System-200 (AFCS-200), Delivery Barcode Sorter (DBCS), Delivery Input Output
Subsystems (DIOSS), Automated Flats Sorting Machine 100 (AFSM-100), Flats Sequencing System (FSS),
Automated Package Processing System (APPS), and Automated Parcel and Bundle Sorter (APBS).


                                                          3
Revenue, Pieces, and Weight Inputs Into the                                               CRR-AR-12-003
Cost and Revenue Analysis Report


Data that cannot be obtained from images on the current mail processing systems are
the individual mailpiece weight. The Mailing Evaluation Readability Lookup Instrument
(MERLIN) machines, located at P&DCs, can automatically capture the weight and
thickness of mailpieces, and is currently used to verify bulk mail data. Although
single-piece mail currently does not go through MERLIN machines, a sampling process
can be established for randomly selecting trays of mail to run through MERLIN to
capture weight between the end of the automated run and the dispatch for transport to
the delivery unit. If management discontinued MERLIN for acceptance verification,
these units or selected components could be made available for RPW sampling. This
procedure could be part of the manual component of the proposed system, or be
performed as a special, periodic study to accurately project the weight of sampled
mailpieces.

Changes in Sampling Sites

The Postal Service could collect required data for RPW estimation more efficiently by
moving the primary sampling sites from nearly 20,000 destination units that serve as
mail exit points to about 300 P&DCs. With evolving mail scanning capabilities and
appropriate system interfaces, data for automation mail could be captured using
available technologies, while data for manually processed mail at the P&DCs would
require a reduced amount of manual sample data collection by data collectors.
Additionally, the Postal Service could retain current sampling design principles to use
the same overall sample size to collect the data at P&DCs.

The proposed data collection plan features two components: automation and manual.
The automation component uses software to extract ODIS-RPW data from images of
mailpieces processed through automation equipment and is obtained in the last
machine sort. The manual component involves non-machinable mailpieces that still
require physical observation and recording of data by the data collection technician. The
non-machine processed mail is physically sampled at the servicing mail processing
facility during Tour 1 7 before it is dispatched to the delivery unit. The same mail that the
ODIS-RPW data collector currently samples would be sampled a few hours earlier at
the servicing P&DC.

The automation component uses existing or ongoing hardware deployments and future
software enhancements to produce images of mailpieces and extract data currently
gathered by the data collection technicians conducting ODIS-RPW tests. This
essentially eliminates much of the current data collection time and cost of manually
sampling data. It also eliminates some potential non-sampling errors introduced by
manual data collectors and permits larger samples to be taken. Although a full census
of the mail may be possible in the future, the initial automated process could simply
replace current manual sampling of delivery point sequenced (DPS) mail currently
performed at the delivery units. Below are examples of how letters, flats, parcels, and
manually processed mail sampling would occur using these proposed procedures.

7
  Plant operations during a 24-hour period involve three 8-hour segments known as tours. Tour 1 is from 11:00 a.m.
to 7:00 a.m., Tour 2 is from 7:00 a.m. to 3:00 p.m., and Tour 3 is from 3:00 p.m. to 11:00 a.m.


                                                         4
Revenue, Pieces, and Weight Inputs Into the                            CRR-AR-12-003
Cost and Revenue Analysis Report




Letters

Currently,            of Letter Mail is processed through automation. For this mail,
images can be extracted on processing machines, such as the AFCS 200, DIOSS, and
Delivery Bar Code Sorter. These machines spray a fluorescent identification barcode on
the mailpieces, recording the processing event including the date and time. This code
can be used to identify the mailpiece image for the image data extraction process.

Mail for a 5-digit ZIP Code area is run through a two-pass DPS sort plan on a DBCS a
few hours before the mail is transported to delivery units. The output, organized in trays
placed in rolling stock or other containers by 5-digit ZIP Code and carrier, is then staged
for transportation to the delivery unit. For those delivery units that do not have DPS
processing, the automated processing of 5-digit mail volumes typically occurs after
midnight and is transported through the multiple dispatches to those delivery units
served by the plant. Under the current ODIS-RPW system, this DPS mail will be
sampled once it arrives at the delivery unit. With the proposed plan, this mail volume
would be analyzed virtually using mailpiece images and ODIS-RPW testing would be
completed before dispatch to the delivery units.

Flats

Automated processing accounts for about                  of flats mail. The flats mail
processing stream is similar to the letter flow, with the exception that different machines
are used in the processing. The Automated Flat Sorting Machine-100 (AFSM 100) has
the ability to lift images of flats using OCR technologies. Although not all processing
facilities have AFSM 100 and Flat Sequencing System equipment installed, future
facility consolidations would likely increase the percentage of processing facilities with
this capability.

Parcels

Machinable parcels that flow through either an Automated Package Processing System
(APPS) or an Automated Parcel and Bundle Sorter (APBS) comprise                of
parcel volume. The Postal Service is currently modifying APBS machines to be capable
of obtaining mailpiece images as well as package weight and dimensions. As these
upgrades occur, the electronic data and images from the APBS can be used, along with
images generated by the APPS, to provide most of the required data regarding the
machinable mail going through these machines.




                                              5
Revenue, Pieces, and Weight Inputs Into the                                                   CRR-AR-12-003
Cost and Revenue Analysis Report


Manual Mail

Manually sorted mail represents approximately                of total mail volume and can
be sampled more economically at the serving P&DC facility during Tour 1 before it is
dispatched to the delivery unit, which currently serves as the mail exit point. This
involves manually sampling the same mail at the P&DC a few hours earlier than the
data collector would otherwise have sampled it at a delivery unit. The Postal Service
already uses some destination P&DCs as mail exit points for the RPW sampling.
Although the sampling location is changed from the delivery unit to the P&DC, the
accuracy of the sampling procedures and statistical results can be preserved or
improved, as the same mail is sampled the same day. The number of P&DCs is
approximately 300 facilities, which helps concentrate the number of sampling locations
to a much smaller number than the 20,000 destination units. If the planned significant
reductions in the mail processing infrastructure occur, the number of facilities for data
collection would be reduced even further. Additionally, postal support employees can be
used to perform the manual sampling instead of fulltime employees, as the duration of
the test will be shorter and tests will be conducted during one work tour.

A prerequisite for the manual sampling to work successfully is that all single piece mail
should go through a P&DC before being sent to a delivery unit for delivery and possible
sampling. Mail not going through a P&DC before being sent to a delivery unit may
include mail accepted at a delivery unit for local delivery and drop-shipped 8 mail.
However, official Postal Service policy is that mail accepted at a delivery unit for local
delivery should be sent to the supporting P&DC for processing.

Virtually all manually processed single-piece mail is sorted to five digits on Tour 1. The
P&DC operating plan provides for sorting to be completed by the time of the final
pull-down for transportation to the delivery units. Therefore, manually sorted mail can be
sampled using the same stratified sampling plan that is used now, including shape and
the 5-digit ZIP Code.

Recommendations

We recommend the chief financial officer and executive vice president direct the
manager, Regulatory Reporting and Cost Analysis, to:

1. Explore using census data and image recognition capabilities to replace the manual
   Revenue, Pieces, and Weight data collection for the mail processed through
   automation.

2. Explore concentrating sampling and data collection of manually processed mail from
   delivery units to the serving processing and distribution facilities for Revenue,
   Pieces, and Weight estimation purposes.


8
 Presorted mail dropped off by a bulk mailer at a destination entry unit for delivery by the Postal Service.
Characteristics of this mail can be captured from the electronic documentation.


                                                            6
Revenue, Pieces, and Weight Inputs Into the                            CRR-AR-12-003
Cost and Revenue Analysis Report


3. Explore using postal support employees for the manual data collection required to
   sample nonmachinable mail.

4. Coordinate with the Postal Regulatory Commission to use census data together with
   sample verification of mailpieces through image recognition for Revenue, Pieces,
   and Weight input.

Management’s Comments

Management agreed with the recommendations. However, management disagreed with
the U.S. Postal Service Office of Inspector General’s (OIG) assessment of the state of
automated data and the estimate of cost savings, and suggested that the report is
misleading and should be significantly altered.

Management stated that certain aspects of the report are theoretical in nature and not
possible, and the costs reported for implementing the upgrades are not realistic. In
repeating their position to the OIG’s report on the TRACS inputs to the Cost and
Revenue Analysis Report, management stated that acceptable and applicable
automated data is not currently available to meet all analytical needs and will not be
available nationally in the timeframe OIG stated. Management also stated that the
Postal Service could not support its business needs by moving ODIS-RPW data
collection exclusively to the P&DCs.

Management acknowledges that software can be developed to aggregate data from
images captured on processing machines but stated that those capabilities and the
associated costs are unknown. Further, the current mail imaging and recognition
capabilities were designed to process and sort mail and not to extract data. As
examples of obstacles to obtaining reliable data from images, management stated that
multiple indicia with more than one revenue amount often appear on mailpieces, as do
multiple barcodes, and that cancellation markings and multiple barcodes obscure
relevant data, making it difficult for the software to decipher the data.

Management also stated that the OIG significantly underestimated the importance of
weight data for business needs and PRC reporting. According to management, as
weight for each weight and zone cell in pricing tables and granularity for all postal rate
categories are required, samples selected from MERLIN will not fulfill the reporting
requirements. Management also stated that parcel processing machines may not
provide weight data at the required tolerances and this imprecision could result in
uncertain volume and revenue reporting.

Management stated that the cost savings the OIG projected for using image extraction
is overstated. Management disagreed with OIG’s estimations of when savings could
begin to materialize, the investment required for determining mailpiece weight, and the
annual maintenance expenses required for the systems. Management stated that the
uncertainties and delay in obtaining PRC approvals would delay implementation to the
fifth year, reducing the cost savings.



                                              7
Revenue, Pieces, and Weight Inputs Into the                         CRR-AR-12-003
Cost and Revenue Analysis Report



Management questioned whether the entire data collection could be moved to P&DCs,
contending that a significant portion of drop-shipped mail bypass P&DCs and the data
necessary for postage adjustment for Electronic Verification System (eVS) mailers could
not be collected at P&DCs.

With regard to recommendation 1, management will coordinate with Engineering to form
a working group; providing specifications for RPW data. The working group will evaluate
image recognition capabilities and where feasible and cost-effective, develop an
implementation plan. The working group will be established in January 2012.

For recommendation 2, management agreed to evaluate the measure of ODIS-RPW
data collection currently performed at serving P&DCs and to form a working group to
consider the mail exit point strategy regarding manually processed mail and testing at
the P&DCs. The working group will meet quarterly and provide as status of its work in
June 2012.

For recommendations 3 and 4, management agreed to investigate the use of additional
part-time employees as allowed by union contracts and to coordinate with the PRC the
use of census data together with sample verification of mailpieces through image
recognition for RPW data, respectively. These efforts are on-going and target dates for
coordination with the PRC will ultimately be derived by the schedules for the various
changes to analytical principles proposed by the Commission.

See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report, but rejects management’s assertion that the report is misleading and should be
significantly altered.

As we reported in our TRACS report, we recognize that all the necessary data is not
currently available from Postal Service systems to use for RPW estimation purposes.
The establishment of a vice president-level coordination committee, as recommended in
the TRACS report, will enable the Postal Service to identify data gaps, develop an
action plan, and allocate resources to address the deficiencies.

OIG agrees that consultations with Engineering Systems would help to overcome the
perceived constraints in gathering data through image recognition. By incorporating the
image recognition requirements in the Postal Service’s equipment and process upgrade
and redesign process, most of the obstacles associated with deciphering the images
can be addressed. We included $10 million in our prior cost savings calculations in the
TRACS report for the necessary modifications of the optical character recognition
software system.




                                              8
Revenue, Pieces, and Weight Inputs Into the                                           CRR-AR-12-003
Cost and Revenue Analysis Report


As weight data at a high precision is required for certain reporting purposes, using an
adequate sample size for the MERLIN-based weight determination will provide the
necessary data. Although the Postal Service currently uses voluminous weight data in
its complex pricing tables, reevaluation of the need for such data and future
simplification of the rate structure will help to fill these gaps. This subject could be a
matter for consideration by the coordination committee.

Regarding drop-shipped bypass mail, all mail submitted by business mailers are
recorded in the PostalOne! system, and the necessary data could be obtained from that
system. Additionally, our audits of the eVS system 9 provided recommendations to
improve controls to prevent revenue leakage, mitigating the need for further verification
at post offices.

With regard to the estimate of cost savings, our estimate is based on greater use of
automation and technology, with a concurrent reduction in the need for manual labor,
and the potential substitution of postal support employees at a lower wage rate.
The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




9
 Application Controls Review of the Electronic Verification System, report number CRR-AR-08-003, issued
March 31, 2008 and Electronic Verification System Rejected Transactions, report number CRR-AR-09-006, issued
August 19, 2009.




                                                      9
Revenue, Pieces, and Weight Inputs Into the                                                CRR-AR-12-003
Cost and Revenue Analysis Report


                                 Appendix A: Additional Information

Background

The Postal Service annually prepares the CRA report to determine whether it complied
with the statutory requirement that each class or type of mail service bear the direct and
indirect costs attributable to that class or service. The Postal Service’s accounting
systems do not accumulate financial data by categories of mail. The Postal Service
uses methods approved by the PRC, which include the use of apportionment factors
derived from operational and statistical information sources to prepare the CRA report.

Major statistical systems used in the CRA process include the IOCS, the City Carrier
Cost system, and the Rural Carrier Cost system to attribute labor costs; TRACS to
attribute mail transportation costs; and the RPW system to estimate national RPW
information.

Two major components of the RPW system are the Bulk RPW (BRPW) component and
the single-piece component. The BRPW collects data from PostalOne! on the amount of
postage paid, rate category, weight, shape, and volume on the approximately
         of mail volume entered in bulk into the mail stream from bulk mailers. A lesser
amount of census data is also derived from other systems, such as the Point of Service
system. The single-piece portion collects data on a stratified sample of approximately
            of the mail, which constitutes the input into the RPW system. Data collection
technicians conduct ODIS-RPW tests as well as data collection for the other statistical
systems that support the rate-making process. 10 Currently, RPW tests are conducted on
a single shape at a sample of mail exit points on a randomly selected day. Data
collectors test the mail and record information in accordance with the guidelines in
Handbook F-75. 11 Data collected include volume, weight, product category and
subcategory, origin, and destination information. The collected data are subjected to a
series of processing using a set of SAS® 12 programs to produce the quarterly and
annual reports.

Objective, Scope, and Methodology

Our objective was to determine whether portions of the CRA report could be prepared
more efficiently and effectively using automated data to reduce statistical data
collection.

To conduct our audit, we reviewed policies and procedures and systems documentation
relating to RPW and other statistical systems. We engaged a contractor to assist in our
audit work, provided guidance to the contractor, and supervised their work to
accomplish our audit objective. We interviewed Postal Service personnel in

10
   RPW data collectors also collect data for the IOCS, the City Carrier Cost System, and the Rural Carrier Cost
System.
11
   Data Collection User’s Guide for Revenue, Volume, and Performance Measurement System.
12
   SAS is a data analytic and programming system developed and marketed by SAS Institute, Inc.


                                                         10
Revenue, Pieces, and Weight Inputs Into the                           CRR-AR-12-003
Cost and Revenue Analysis Report


Engineering, Operations and Finance, conducted site visits, and observed statistical
tests.

We conducted this performance audit from May 2011 through January 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on December 1, 2011, and included
their comments where appropriate.

We evaluated business processes, the availability of system-generated data, and
potential enhancements to systems and processes. We did not base our conclusions on
the results of computer-generated data, therefore, did not evaluate the reliability of any
such data.




                                              11
    Revenue, Pieces, and Weight Inputs Into the                             CRR-AR-12-003
    Cost and Revenue Analysis Report


    Prior Audit Coverage

                                          Final
                        Report           Report      Monetary
  Report Title         Number              Date       Impact              Report Results
Cost and               CRR-AR-          7/27/2010      None        The Postal Service needs to
Revenue                 10-003                                     establish proper access
Analysis                                                           controls for its shared
Reporting Model                                                    network drive. Also, the
                                                                   Postal Service could
                                                                   enhance controls by
                                                                   improving CRA process
                                                                   documentation. Management
                                                                   agreed with the findings and
                                                                   recommendations.
Transportation          CRR-AR-         9/19/2011   $9.8 million   Additional planning, systems
Cost System              11-004                                    design, and system
Inputs into the                                                    integration could enable the
Cost and                                                           Postal Service to use more
Revenue                                                            of the data generated by
Analysis Report                                                    operational systems for CRA
                                                                   cost attribution purposes.
                                                                   Management agreed with the
                                                                   findings and
                                                                   recommendations.




                                                    12
Revenue, Pieces, and Weight Inputs Into the                                             CRR-AR-12-003
Cost and Revenue Analysis Report


                                     Appendix B: Monetary Impacts

                       Finding                       Impact Category                  Amount

              RPW Data Collection               Funds Put to Better Use 13            $127,880,195

The Postal Service could achieve cost savings by using automated processes to collect
data for RPW estimation. For single-piece mail processed through automation, the
necessary data could be obtained from images of mail captured by mail processing
equipment. As discussed in the report, Transportation Cost System Inputs into the Cost
and Revenue Analysis Report, equipment upgrade costing between $3,000 and $5,000
per machine is required to capture some of the necessary data. This upgrade will also
benefit other systems, including Operations systems, as well as TRACS, and
ODIS-RPW. Mailpiece weight, which cannot be obtained from the image, could be
obtained using the MERLIN as part of the manual data collection process. Management
could also conduct a special, periodic study to project the weight of mailpieces.

Concentrating the manual data collection on manually processed single-piece mail to
300 or fewer P&DCs, coupled with the decrease in data collection workload, and the
use of postal support employees, will result in labor savings. Taking into account the
necessary maintenance and incidental expenses, the net present value of savings over
a 10-year period is between $127.88 million and $141.27 million.




13
     Funds that could be used more efficiently by implementing recommended actions.


                                                         13
Revenue, Pieces, and Weight Inputs Into the                    CRR-AR-12-003
Cost and Revenue Analysis Report


                           Appendix C: Management’s Comments




                                              14
Revenue, Pieces, and Weight Inputs Into the        CRR-AR-12-003
Cost and Revenue Analysis Report




                                              15
Revenue, Pieces, and Weight Inputs Into the        CRR-AR-12-003
Cost and Revenue Analysis Report




                                              16
Revenue, Pieces, and Weight Inputs Into the        CRR-AR-12-003
Cost and Revenue Analysis Report




                                              17
Revenue, Pieces, and Weight Inputs Into the        CRR-AR-12-003
Cost and Revenue Analysis Report




                                              18
Revenue, Pieces, and Weight Inputs Into the        CRR-AR-12-003
Cost and Revenue Analysis Report




                                              19
